               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                    Do Not Pay List

                       Audit Report




                                              July 26, 2012

Report Number CA-AR-12-003
                                                                        July 26, 2012

                                                                     Do Not Pay List

                                                      Report Number CA-AR-12-003




BACKGROUND:                                 WHAT THE OIG FOUND:
On June 18, 2010, President Obama           Although the Postal Service does not
issued a memorandum titled Enhancing        use the Do Not Pay portal, it has
Payment Accuracy Through a “Do Not          procedures in place to ensure that it
Pay List” that requires all government      does not award contracts to debarred,
agencies to participate in a centralized    suspended, or ineligible suppliers; and
database or portal which would allow        to confirm debts with the U.S.
contracting officers to check one           Department of the Treasury (Treasury)
database before awarding contracts and      before making payments to suppliers.
releasing federal funds.                    Additionally, our work identified no
                                            improper payments to deceased
Subsequently, Office of Management          persons on the U.S. Social Security
and Budget Memorandum M-12-11,              Administration’s Death Master File.
Reducing Improper Payments Through
the „Do Not Pay List,‟ dated April 12,      Treasury personnel responsible for
2012, directed the development of           implementing the portal informed Postal
agency plans for using the Do Not Pay       Service personnel that they were
portal to help ensure the federal           focusing on providing portal access to
government does business with               appropriated federal agencies and that,
responsible parties.                        presently, they will not provide access to
                                            the Postal Service. It would benefit the
Although the U.S. Postal Service is not     Postal Service if it continued to discuss
required to comply with the processes       the status with portal personnel and, if
prescribed in the memoranda, it is          appropriate, work with them to obtain
required to ensure that contracts are not   access. Because of the Postal Service’s
awarded to debarred, suspended, or          inability to obtain access to the Do Not
ineligible suppliers and it could           Pay portal, we are not making
potentially benefit from implementation     recommendations at this time.
of these processes.

Our objective was to determine whether      Link to review the entire report
the Postal Service established
processes similar to those required in
the presidential memorandum.
July 26, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Do Not Pay List
                           (Report Number CA-AR-12-003)

This report presents the results of our audit of the Do Not Pay List (Project Number
11YG034CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Stephen Masse
    Susan Witt
    Corporate Audit and Response Management
Do Not Pay List                                                                                                    CA-AR-12-003



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Postal Service Procedures Related to Do Not Pay Portal ............................................... 2

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Management’s Comments .......................................................................... 8
Do Not Pay List                                                                                        CA-AR-12-003




Introduction

This report presents the results of our audit of the Do Not Pay List (Project Number
11YG034CA000). The objective was to determine whether the U.S. Postal Service
established processes similar to those required in the presidential memorandum,
Enhancing Payment Accuracy Through a „Do Not Pay List,’ dated June 18, 2010.1 The
Postal Service spent about $12.3 billion dollars in fiscal year 2011 on the purchase of
goods and services to support all aspects of its operations. This self-initiated audit
addresses operational risk. See Appendix A for additional information about this audit.

The 2010 presidential and 2012 Office of Management and Budget (OMB) memoranda
require federal agencies to develop and use a Do Not Pay portal to help ensure the
federal government does business with responsible parties. Although the Postal Service
does not have to comply with the memoranda, it is required2 to ensure that it does not
award contracts to debarred, suspended, or ineligible suppliers; therefore, it could
potentially benefit from using the Do Not Pay portal.

Conclusion

Although the Postal Service does not use the Do Not Pay portal, it has procedures in
place to ensure that it does not award contracts to debarred, suspended, or ineligible
suppliers and to confirm debts with the U.S. Department of the Treasury (Treasury)
before making payments to suppliers. Additionally, our work identified no improper
payments to persons on the U.S. Social Security Administration’s (SSA) Death Master
File (SSDMF).3 Treasury personnel responsible for implementation of the portal
informed Postal Service personnel that they were focusing on providing portal access to
appropriated federal agencies and that, presently, they will not provide access to the
Postal Service. It would benefit the Postal Service if its personnel would continue to
discuss the status with portal personnel and, if appropriate, work with them to obtain
access. Because of the Postal Service’s inability to obtain access to the Do Not Pay
portal, we are not making recommendations at this time.




1
  OMB Memorandum M-12-11, Reducing Improper Payments through the „Do Not Pay List,‟ dated April 12, 2012,
requires agencies to develop plans to comply with the presidential memorandum.
2
  Title 39 CFR §601.113(a), Debarment, suspension and eligibility, states that, except as provided otherwise in this
part, contracting officers (COs) may not solicit proposals from, award contracts to, or consent to subcontracts with
debarred, suspended, or ineligible suppliers.
3
  Leading government, financial, investigative, credit reporting, medical research, and other organizations use the
SSDMF to verify death as well as to prevent fraud. It includes the following information on each deceased person, if
the data are available to the SSA: Social Security number (SSN), name, date of birth, date of death, state or country
of residence, ZIP Code of last residence, and ZIP Code of lump sum SSA payment. The SSA does not have a death
record for all persons; therefore, it does not guarantee the veracity of the file. Thus, the absence of a particular
person is not proof this person is alive.
                                                             1
Do Not Pay List                                                                                       CA-AR-12-003



Postal Service Procedures Related to Do Not Pay Portal

Using the Do Not Pay portal would simplify the Postal Service’s pre-award process by
allowing personnel to check several data sources at one time, rather than checking
individual data sources as currently required. Table 1 details the data sources currently
included in the Do Not Pay portal and whether Postal Service personnel are currently
required to check them. In addition, Treasury plans to continue to add other high-value
data sources to the portal.

                         Table 1: Comparison of Do Not Pay Portal
                  With Postal Service Contracting and Payment Process
                                                            Currently Required to be
                                                           Checked by Postal Service
             Data Sources Currently Included                  Supply Management
                 in the Do Not Pay Portal                          Personnel
    U.S. General Services Administration’s (GSA)
    Excluded Party List System (EPLS) (public)4                       Yes
    Treasury’s Debt Check (private)                                   Yes
    EPLS with an Office of Foreign Asset Controls
    (OFAC) (private)5                                                  No
                                                         6
    List of Excluded Individuals/Entities (LEIE) (public)              No
    SSDMF (public)                                                     No
                                                    7
    Central Contractor Registration (CCR) (public)                     No
                               8
    The Work Number (public)                                           No
Source: Do Not Pay List website and Postal Service data.

Before awarding contracts, Postal Service COs are required9 to check the following lists
to help prevent improper payments to suppliers:

     The GSA’s EPLS.

     The Postal Service List of Suppliers Debarred, Suspended, and Ineligible.10

4
  The GSA’s EPLS (public) contains a list of individuals and firms excluded by federal government agencies from
receiving new federal contracts.
5
  The EPLS with an OFAC (private) contains information that is included in the GSA’s EPLS (public) file, as well as
the taxpayer identification number (TIN) for those entities included on the list.
6
  The LEIE (public) is the U.S. Department of Health and Human Services Office of Inspector General’s (DHHS OIG)
database of individuals and entities currently excluded from participation in federal health care programs, such as
Medicare and Medicaid.
7
  The CCR (public) is the primary registrant database for the U.S. federal government. The CCR collects, validates,
stores, and disseminates data in support of agency acquisition missions, including federal agency contract and
assistance awards. This system was not identified in the June 18, 2010, presidential memorandum.
8
  The Work Number (public), a service of Equifax, is a single source for employer-direct and government-direct data.
It has a complete offering of current and historical employment and identity information. The June 18, 2010,
presidential memorandum did not identify this system.
9
  Supplying Practices, Process Step 7-11.4, Supplier Capability Analysis.
10
   Information on the list must be reported to the GSA for inclusion on the EPLS. The Postal Service plans to
eliminate its internal list and only use the GSA list as the official suspension and debarment reference for Postal
Service purposes.



                                                           2
Do Not Pay List                                                               CA-AR-12-003



   The List of Suppliers from Which the Postal Service has Declined to Accept or
    Consider Proposals.

Our recent report, Suspension and Debarment Program (Report Number
CA-AR-12-002, dated May 30, 2012), found that no suspended or debarred suppliers
were currently under contract with the Postal Service.

Also, the Postal Service began participating in the Treasury Offset Program (TOP) on
June 1, 2009. The TOP is a centralized program, administered by the Financial
Management Service's Debt Management Services, to collect delinquent debts owed to
federal agencies and states. It is a component of Treasury’s Debt Check Database
which the Postal Service checks for delinquent debts before making payments to
suppliers. As of April 10, 2012, the Postal Service has offset $30,767,735 under the
TOP.

The Postal Service did not have a process for checking the SSDMF before awarding a
contract or making payments. Therefore, to identify improper payments, we compared
the SSDMF to the Contract Authoring and Management System (CAMS) and
Transportation Contract Support System (TCSS) vendor files to determine whether any
SSN on the vendor files matched an individual’s SSN on the SSDMF. We identified
61 CAMS contracts and six TCSS contracts in which the suppliers’ SSN in the vendor
files matched information in the SSDMF and payments were made after the date of
death. However, we determined the payments were proper and, as appropriate, the
Postal Service ensured the appropriate vendor was identified as the payee for the
contracts. We did not identify any other potential improper payments. We also noted
that validating information in the financial supplier type field in CAMS is very
cumbersome. Our initial comparison resulted in numerous false positive results.
Therefore, we are not making a recommendation related to the SSDMF.

Treasury personnel responsible for the implementing the Do Not Pay portal informed
Postal Service personnel that they were focusing on providing portal access to
appropriated federal agencies and that, presently, they will not provide access to the
Postal Service. It would benefit the Postal Service if its personnel would continue to
discuss the status with portal personnel and, if appropriate, work with them to obtain
access. Because of the Postal Service’s inability to obtain access to the Do Not Pay
portal, we are not making recommendations at this time.

Management’s Comments

Management agreed with the report’s findings and confirmed that access to the Do Not
Pay portal is not available to non-appropriated agencies at this time. See Appendix B for
management’s comments, in their entirety.




                                            3
Do Not Pay List                                                           CA-AR-12-003



Evaluation of Management’s Comments

Although the report does not contain any recommendations, the U.S. Postal Service
Office of Inspector General (OIG) considers management’s comments responsive.




                                          4
Do Not Pay List                                                                       CA-AR-12-003




                                    Appendix A: Additional Information

Background

On June 18, 2010, President Obama issued a memorandum titled Enhancing Payment
Accuracy Through a „Do Not Pay List.‟ The purpose of this memorandum is to require all
government agencies to participate in a centralized database, which would give COs
one database to check before awarding contracts and releasing any federal funds. The
five systems identified for consolidation into the Do Not Pay List portal are:

      SSDMF.

      The GSA’s EPLS.

      Treasury's Debt Check Database.

      U.S. Department of Housing and Urban Development's Credit Alert System or Credit
       Alert Interactive Voice Response System.11

      The DHHS OIG's LEIE.

Subsequently, OMB Memorandum M-12-11 directed the development of agency plans
for using the Do Not Pay portal for pre-payment eligibility reviews and required the plans
to be submitted by June 30, 2012. The Do Not Pay portal will be comprised of two
components geared toward reducing improper payments:

      A web-based, single-entry access portal that enables agencies to access the data
       sources identified in the June 18, 2010 presidential memorandum, including the
       SSDMF, the GSA’s EPLS, Treasury’s Debt Check Database, and DHHS’ LEIE. In
       addition, Treasury will continue to add other high-value data sources to the portal.

      Data Analytics Services that use additional data sources not available through the
       portal. These include Treasury's OFAC List, ZIP Code data, prison information, and
       several privately available sources. The sources are augmented by advanced data
       analytic activities for identifying trends, risks, and patterns of behavior that might
       warrant further review by the agency.

The memorandum states that, to the extent that additional information provided by the
Do Not Pay portal is helpful to COs trying to ensure the federal government does
business with responsible parties, COs are encouraged (but not required) to review the
Do Not Pay portal. It further requires an agency's chief acquisition officer to work with its
chief financial officer (or the official accountable for complying with the president's ‘Do
Not Pay List’ directive) to evaluate the extent to which the information provided by the
Do Not Pay portal can assist COs as a complement to the Federal Awardee
11
     As of June 6, 2012, the system was not included in the Do Not Pay List portal.


                                                            5
Do Not Pay List                                                                                      CA-AR-12-003



Performance and Integrity Information System. Acquisition officials are encouraged to
periodically review the Do Not Pay portal to determine whether the information provided
would be useful in the agency's acquisition process.

Although the Postal Service is not required to follow these memoranda,
Title 39 CFR §601.113 requires the Postal Service to ensure it does not award contracts
to debarred, suspended, or ineligible suppliers.

Objective, Scope, and Methodology

Our objective was to determine whether the U.S. Postal Service established processes
similar to those required in the presidential memorandum. To accomplish our objective,
we reviewed applicable guidance regarding the Do Not Pay list and the systems to be
included, and interviewed various OMB officials regarding the list’s status. We also
reviewed the Postal Service’s Supplying Principles and Practices to determine the
Postal Service’s process for awarding contracts and interviewed various Postal Service
officials regarding the process. In addition, we obtained information regarding the Postal
Service’s participation in the TOP.

We also purchased a copy of the SSDMF 12 as of August 31, 2011, and matched it to the
open contracts in CAMS as of November 17, 2011. We limited the match by focusing on
the ‘financial supplier type’ field in CAMS where the field indicates payments made to a
Postal Service employee or a self-employed person (that is, those using a SSN as a
TIN) or where the field was blank. We identified 61 contracts with the potential for
making payments to deceased suppliers. We researched contract and payment history,
Internal Revenue Service Forms W-9, Request for TIN and Certification, and
LexisNexis® information13; and interviewed applicable COs for information on the
contracts. We also matched the SSDMF to open contracts in TCSS as of February 23,
2012, and found six contracts with the potential for making payments to deceased
suppliers. For the six contracts, we researched contract and payment history and
interviewed applicable COs.

The SSA provided a caution/disclosure with the SSDMF that it may contain errors.
Based on our matching of the data and review of applicable information, we determined
the data were sufficiently reliable for the purposes of our report.

We conducted this performance audit from June 2011 through July 201214 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
12
   The file contained 90 million records dating back to 1936.
13
   LexisNexis is a leading global provider of content-enabled workflow solutions designed specifically for
professionals in the legal, corporate, government, and accounting markets or fields. The information was gathered
from public, proprietary, criminal, and background records pulled from independent data sources.
14
   Based on a delay in the receipt of critical data, our audit was suspended from January 19 to February 6, 2012.


                                                         6
Do Not Pay List                                                              CA-AR-12-003



conclusions based on our audit objective. We discussed our observations and
conclusions with management on June 27, 2012, and included their comments where
appropriate.

Prior Audit Coverage

The OIG issued the report Suspension and Debarment Program (Report Number
CA-AR-12-002, dated May 30, 2012), which disclosed that, although no suspended or
debarred suppliers were currently under contract with the Postal Service, opportunities
existed for the Postal Service to improve its suspension and debarment program. We
identified best practices that, if implemented, could help strengthen the program. The
Postal Service agreed with our findings and recommendations and took immediate
corrective action to improve its program. We were able to close our recommendations
upon issuance of the report.




                                           7
Do Not Pay List                                       CA-AR-12-003



                  Appendix B: Management’s Comments




                                  8
